No. 19-440
In The

Supreme (Eourl nf iJtjB '^xdizh^izdt^
Northern Trust Corporation and Northern Trust Company,
Petitioners,
V.

Lindie L. Banks and Erica LeBlanc,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,707
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 4, 2020.

Ian Heath G^l engorn

